                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: Al3050065                                                                       Page 1 of 1



                                                        Closeout

                 Our office received an allegation that the research ideas in an NSF Proposal 1 were
         substaritially similar to those in a journal article. We reviewed the NSF Proposal for plagiarized
         text but did not find apparently copied text; upon further communication with the complainant,
         she clarified that she believed the recent journal article had plagiarized from the NSF Proposal
         research team and not vice-versa. Our office has no jurisdiction over the journal article in
         question.

                   Accordingly, this case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
